FILED
NOVEMBER 26, 2019
In the Office of the Clerk of Court
WA State Court of Appeals, Division III

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
DIVISION THREE
JOHN L. CORRIGAN, Sr.,

)

No. 36244-2-III

)

Appellant,

)
)

v.

)
)

GRANT COUNTY, a municipal
Corporation; D. ANGUS LEE; PATRICK
SCHAFF; JANIS WHITENERMOBERG; BRIAN D. BARLOW; JOHN
A. ANTOSZ, and TIMOTHY KRON,

)

UNPUBLISHED OPINION

)
)

)
)
)

Respondents.

)

Lawrence-Berrey, C.J. — John Corrigan appeals the trial court’s CR 12(b)(6)
order dismissing his amended complaint. Because the trial court considered matters
outside the pleadings, we review the trial court’s order as if it were a CR 56 order
granting summary judgment. Applying that standard, we affirm.
FACTS
In April 2011, John Corrigan sped by Trooper Timothy Kron on Interstate 90.
Trooper Kron activated his emergency lights and followed Corrigan for eight miles until
another trooper joined. At that point, Corrigan pulled over. Corrigan was cited for

App. 1

No. 36244-2-III
Corrigan v. Grant County
speeding and failing to stop for a police officer. The speeding ticket was dismissed, but
Corrigan was convicted for failing to stop. The conviction was later overturned by the
superior court and dismissed without prejudice.
On March 25, 2013, Corrigan brought a 42 U.S.C. § 1983 suit in federal court
against Trooper Kron, Grant County, and others, alleging violations of Corrigan’s civil
rights, malicious prosecution, and negligence stemming from his earlier arrest and
prosecution.
On July 3,2013, Grant County refiled charges against Corrigan for failing to stop.
Corrigan was reconvicted of that charge.
On December 10,2013, the federal court granted the defendants’ motion for
summary judgment dismissing all of Corrigan’s claims. Corrigan appealed to the Ninth
Circuit, but the Ninth Circuit denied it, finding the appeal “so insubstantial as to not
warrant further review.” Clerk’s Papers (CP) at 174.
On September 15,2016, Corrigan brought suit in Kittitas County Superior Court
against Grant County, various Grant County employees, and Trooper Kron. In that suit,
he asserted a 42 U.S.C. § 1983 claim, and claims for abuse of process, malicious
prosecution, and negligence. The case was removed to federal court.

2

App. 2

No. 36244-2-III
Corrigan v. Grant County

Trooper Kron brought a Fed. R. Civ. P. 56 motion for summary judgment
dismissal. The federal court granted that motion, and Trooper Kron was no longer a party
to that action.
Grant County and its employees brought a Fed. R. Civ. P. 12(b)(6) motion to
dismiss. The federal court dismissed Corrigan’s suit against Grant County and its
employees. Somewhat contradictorily, it also afforded Corrigan leave to amend his
complaint.
Corrigan filed an amended complaint, which asserted only State law claims.
Although Trooper Kron was no longer a party to that action, Corrigan informally e-mailed
Trooper Kron the amended complaint instead of formally serving him. Corrigan’s
amended complaint alleged: (1) negligence by Grant County and the prosecutor’s office,
(2) abuse of process against Grant County for the recharge and retrial after Corrigan’s
conviction was overturned and after he filed a § 1983 action, (3) a fair trial violation
against Grant County and Judge Whitener-Moberg, and, (4) malicious prosecution against
Grant County and Trooper Kron. Corrigan moved to remand the case, and the federal
court remanded it back to Kittitas County Superior Court.

3

App. 3

No. 36244-2-III
Corrigan v. Grant County
On April 23, 2018, Grant County moved to dismiss Corrigan’s amended complaint
pursuant to CR 12(b)(6). Among many other arguments, Grant County argued that
Corrigan’s claims were outside the three-year statute of limitations.
Trooper Kron also filed a motion to dismiss pursuant to CR 12(b)(6). Among
many other arguments, Trooper Kron argued insufficient service of process under
CR 12(b)(5).
The trial court agreed with the defendants’ many arguments and granted their
motions for dismissal. Corrigan timely appealed to this court.
ANALYSIS
A.

Adequate record

Corrigan contends statements from various parties, including the trial court, are
missing from the verbatim report of proceedings. He argues this error requires reversal.
We disagree.
As explained below, we review the trial court’s rulings de novo. This means we
review the same documents that the trial court considered. The trial court’s questions and
the parties’ answers during argument of their motions are irrelevant to our review.
Because we review only the written record, we are satisfied the record is sufficient for our
review.

4

App. 4

No. 36244-2-III
Corrigan v. Grant County

B.

Standard of review

CR 12(c) provides in relevant part:
If, on a motion for judgment on the pleadings, matters outside the pleadings
are presented to and not excluded by the court, the motion shall be treated
as one for summary judgment and disposed of as provided in rule 56 ....
Because the trial court considered matters outside Corrigan’s amended complaint, we
review the trial court’s order under CR 56.
On review of a summary judgment order, we engage in the same inquiry as the
trial court. Wash. State Major League Baseball Stadium Pub. Facilities Dist. v. Huber,
Hunt & Nichols-Kiewit Constr. Co., 165 Wn.2d 679, 685, 202 P.3d 924 (2009). All facts
and reasonable inferences are considered in a light most favorable to the nonmoving
party. Berger v. Sonneland, 144 Wn.2d 91, 102-03, 26 P.3d 257 (2001). Summary
judgment is appropriate only when there are no disputed issues of material fact and the
prevailing party is entitled to judgment as a matter of law. CR 56(c).
C.

Grant County’s motion to dismiss

Corrigan contends the trial court erred by granting Grant County’s motion to
dismiss on his claims of malicious prosecution, abuse of process, negligence, and his
causes of action against the various judges. We disagree.

5

App. 5

No. 36244-2-III
Corrigan v. Grant County

I.

Malicious prosecution

A plaintiff asserting malicious prosecution must establish various elements,
including that the proceedings terminated on the merits in favor of the plaintiff. Hanson
v. City of Snohomish, 121 Wn.2d 552, 558, 852 P.2d 295 (1993). Here, Corrigan was
reconvicted of failure to stop. He cannot establish that the proceedings terminated on the
merits in his favor. The trial court did not err in dismissing this claim.
2.

Abuse ofprocess and negligence: Statute of limitations

A plaintiff asserting abuse of process or negligence must bring suit within three
years of when the cause of action accrued. See RCW 4.16.080(2); see also Nave v. City
ofSeattle, 68 Wn.2d 721, 724, 415 P.2d 93 (1966) (abuse of process); Washington v.
Boeing Co., 105 Wn. App. 1,17,19 P.3d 1041 (2000) (negligence). Generally, a cause of
action accrues when the party has the right to apply to a court for relief. Deegan v.
Windermere Real Estate Center-Isle, Inc., 197 Wn. App. 875, 892, 391 P.3d 582 (2017).
A party has the right to apply to a court for relief when the party can establish each
element of the action. Shepard v. Holmes, 185 Wn. App. 730, 739, 345 P.3d 786 (2014).
Here, Corrigan’s claims for abuse of process and negligence centered around
Grant County’s and its employees’ decision to refile criminal charges against him. If
refiling the charges was wrongful, this is when Corrigan had a right to apply for judicial

6

App. 6

No. 36244-2-III
Corrigan v. Grant County

relief. The criminal charges were refiled on July 3, 2013. Corrigan’s September 15,2016
original complaint was, therefore, outside the three-year limitation period. Even if his
amended complaint related back to the filing of his original complaint, it too was late.
Corrigan argues that his September 2016 complaint was timely because he was
convicted in November 2013. But being convicted of a crime is not an element of abuse
of process or negligence, and is thus irrelevant to when he had a right to apply for judicial
relief. We conclude that his conviction date is not when his abuse of process and
negligence claims began to accrue.
3.

Judicial immunity

“Under common law, judges are absolutely immune from suits in tort that arise
from acts performed within their judicial capacity.” Lallas v. Skagit County, 167 Wn.2d
861, 864, 225 P.3d 910 (2009). “[Jjudicial immunity applies to judges only when they are
acting in a judicial capacity and with color of jurisdiction.” Id. at 865.
Here, Corrigan’s claims against the various judges all occurred while they were
acting within their judicial capacity. Therefore, judicial immunity extends to thenactions, and Corrigan’s claims fail.

7

App. 7

No. 36244-2-III
Corrigan v. Grant County

D.

Trooper Kron’s motion to dismiss

Corrigan contends the trial court erred by finding Trooper Kron was not properly
served and, thus, was not a party to the action. We disagree.
Whether service was proper is a question of law that this court reviews de novo.
Goettemoeller v. Twist, 161 Wn. App. 103, 107, 253 P.3d405 (2011). Under Fed. R.
Civ. P. 4(e)(l)-(2), service must occur: (1) on the individual personally, (2) on the
individual’s dwelling or usual place of abode with someone of suitable age who resides
there, (3) on the individual’s agent authorized by law to receive process, or (4) any
method allowed by state law in the state where the district court is located or where
service is made. Under Washington law, service must occur through: (1) personal
service, (2) on the individual’s usual place of abode with a person of suitable age who
resides there, (3) on the individual’s usual place of abode with a person of suitable age
who resides there, a proprietor, or an agent, and then mailing a copy by first class mail to
the person at their usual mailing address, (4) by publication when the defendant cannot be
found, or (5) by certified mail when the court determines it is just as likely to give actual
notice. See CR 4(d); RCW 4.28.080(16), (17); RCW 4.28.100.
Here, Corrigan does not assert that he served Trooper Kron in compliance with any
of the aforementioned ways. He merely asserts that electronic service of his amended

8

App. 8

No. 36244-2-III
Corrigan v. Grant County

complaint on Trooper Kron was sufficient. We disagree. Electronic service is not
permitted under federal or state law. The trial court properly dismissed Corrigan’s claims
against Trooper Kron for insufficient service of process. i
Affirmed.
A majority of the panel has determined this opinion will not be printed in the
Washington Appellate Reports, but it will be filed for public record pursuant to
RCW 2.06.040.

L

A

Wv <
Lawrence-Berrey, C.J.
Aw

(t

r-H

WE CONCUR:

&
1

Siddoway, J.

Pennell, J.

i

Because of our disposition of these arguments, we need not address the various
other bases for which we might affirm the trial court’s dismissal of Grant County, its
employees, and Trooper Kron.
9

App. 9

FILED
DECEMBER 31, 2019
In the Office of the Clerk of Court
WA State Court of Appeals, Division III

COURT OF APPEALS, DIVISION III, STATE OF
WASHINGTON
JOHN L. CORRIGAN, Sr.,
Appellant,
v.
GRANT COUNTY, a municipal
corporation; D. ANGUS LEE; PATRICK
SCHAFF; JANIS WHITENER-MOBERG;
BRIAN D. BARLOW; JOHN A. ANTOSZ,
and TIMOTHY KRON,
Respondents.

)
)
)
)
)
)
)
)
)
)
)
)
)

No. 36244-2-111

ORDER DENYING
MOTION FOR
RECONSIDERATION

The court has considered appellant’s motion for reconsideration and is of the
opinion the motion should be denied. Therefore,
IT IS ORDERED the motion for reconsideration of this court’s decision of
November 26, 2019, is denied.
PANEL:

Judges Lawrence-Berrey, Siddoway, and Pennell

FOR THE COURT:
LA- ^

E^R^EY ^
ROBERT LAWRENCE-B
CHIEF JUDGE

App. 10

1
2
3
4
5
6
7
8

SUPERIOR COURT OF WASHINGTON
FOR KITTITAS COUNTY

9
NO. 16-2-00254-7

JOHN L. CORRIGAN, Sr.,
10
Plaintiff,
11
v.

12
13
14
15

GRANT COUNTY, a municipal corporation; D.
ANGUS LEE; PATRICK SCHAFF; JANIS
WHITENER-MOBERG; BRIAN D. BARLOW;
JOHN A. ANTOSZ; and TIMOTHY KRON,

ORDER GRANTING DEFENDANTS
GRANT COUNTY, D. ANGUS LEE,
PATRICK SCHAFF, JANIS
WHITENER-MOBERG, BRIAN D.
BARLOW, AND JOHN A. ANTOSZ’S
MOTION FOR DISMISSAL
PURSUANT TO CR 12(b)(6)

Defendants.

16

THIS MATTER came before the above-titled Court on Defendants Grant County, D.

17

Angus Lee, Patrick Schaff, Janis Whitener-Moberg, Brian D. Barlow, and John A. Antosz’s

18

Motion for Dismissal pursuant to CR 12(b)(6), the Court being fully apprised, and after

19

reviewing Defendants’ Motion For Dismissal Pursuant to CR 12(b)(6) and Plaintiffs Amended

20

Complaint; AFTER hearing the argument of Plaintiff and Defendants’ Counsel, and

21

determining that there is no grounds for relief in the Amended Complaint, the Court being fully

22

advised in the premises,

23
T:\WPWIN\Oninl Comity iloaidofCumniisioiieraNConigaii v Chant County ct a] (WRCIIIM’huding* • Dispo»Hivc\452989do<

24

Jerry Moberg & Associates, P.S.
P.O. Box 130 124 3rd Ave S.W.
Ephrata, WA 98823
(509) 754-2356 / Fax (509) 754-4202

ORDER GRANTING DEFENDANTS’
MOTION FOR DISMISSAL
Page - 1

App. 11

1

NOW THEREFORE, IT IS HEREBY ORDERED, ADJUDGED AND DECREED,

2

that Defendants Grant County, D. Angus Lee, Patrick Schaff, Jan is Whitener-Moberg, Brian D.

3

Barlow, and John A. Antosz’s motion for dismissal pursuant to CR 12(b)(6) is hereby

4

GRANTED and this complaint, and all of the claims set forth therein, brought against said

5

Defendants shall be and the same are DISMISSED with prejudice.

6

”3\A4

SO ORDERED on Jtme

U , 2018.

7

'QuJxUll N

8

HONORABLE RICHARD BARTHELD, Visiting Judge
YAKIMA COUNTY SUPERIOR COURT

9

10
11

Presented By:

12

JERRY MOBERG & ASSOCIATES, P.S.

13
14

15

ristensen, WSBA No. 24682
Attorney for Defendants Grant County,
D. Angus Lee; Patrick Schaff, Janis WhitenerMoberg, Brian D. Barlow, and John A. Antosz

16
17
18
19
20
21
22
23
T:\WPWI fAQranl County Doan) of CommiuiotKTrtCorrigim v Clrntii County eul (WRCinWcoding* • Di*posiiivc\452989 doc

24

Jerry Moberg & Associates, P.S.
P.O. Box 130-9-124 3rd Ave S.W.
Ephrata, WA 98823
(509) 754-2356 / Fax (509) 754-4202

ORDER GRANTING DEFENDANTS’
MOTION FOR DISMISSAL
Page - 2

App. 12

I

1
2
3
4
5.

6
7

STATE OF WASHINGTON
KITTITAS COUNTY SUPERIOR COURT

8

9
10
11
12
13
14
15
16

JOHN L. CORRIGAN, Sr.;
Plaintiff,
v.

19
20

21
22
23
24

25

ORDER GRANTING DEFENDANT
TIMOTHY KRON’S MOTION FOR
DISMISSAL

GRANT COUNTY, a municipal
corporation; D. ANGUS LEE;
PATRICK SCHAFF; RYAN J.
ELLERSICK; DOUGLAS R.
MITCHELL; JANIS
WHITENERMOBERG;
BRIAN D. BARLOW;
TIMOTHY KRON; TOM JONES;
SCOTT PONOZZO; and JOHN A.
ANTOSZ;
Defendants.

17
18

NO. 16-2-00254-7

THIS MATTER came before the above-titled Court on Defendant Timothy Kron’s
Motion for Dismissal pursuant to CRs 12(c), 12(b)(6), and 12(b)(5), the Court being fully
apprised, and after reviewing Defendant’s Motion for Dismissal and Plaintiff’s Amended
Complaint; after hearing the argument of Plaintiff and Defendant Kron’s counsel and
determining that there is no grounds for relief in the Amended Complaint, the Court being fully
advised in the premises,
NOW THEREFORE, IT IS HEREBY ORDERED, ADJUDGED AND DECREED, that
Defendant Timothy Kron’s motion for dismissal pursuant to CRs 12(c), 12(b)(6), and 12(b)(5)

26

ORDER GRANTING
DEFENDANT KRON’S MOTION
FOR DISMISSAL

I

App. 13

ATTORNEY GENERAL OF WASHINGTON
1116 West Riverside Avenue, Suite 100
Spokane, WA 99201-1106
(509)456-3123

1

is hereby GRANTED and this complaint, and all of the claims set forth therein, brought against

2

said Defendant shall be DISMISSED with prejudice.

3

SO ORDERED this U* day offane?2018.

4

HONORABLE RICHARD BARTHELD,
Visiting Judge
YAKIMA COUNTY SUPERIOR COURT

5
6
7
8

9

Presented by:
ROBERT W. FERGUSON
Attorney General

10
11
12

FRIEDA K. TIMMERMAN, WSBA #46541
OLD #91106
Assistant Attorney General
Attorney for Defendant Timothy Kron

13
14
15
16
17
18
19
20

21
22
23
24

25
26

ORDER GRANTING
DEFENDANT KRON’S MOTION
FOR DISMISSAL

2

App. 14

ATTORNEY GENERAL OF WASHINGTON
1116 West Riverside Avenue, Suite 100
Spokane, WA 99201-1106
(509)456-3123

FILED
SUPREME COURT
STATE OF WASHINGTON
4/29/2020
BY SUSAN L. CARLSON
CLERK

THE SUPREME COURT OF WASHINGTON
JOHN L. CORRIGAN SR.,
Petitioner,
v.
GRANT COUNTY, et al,
Respondents.

)
)
)
)
)
)
)
)
)
)
)
)

No. 98133-7
ORDER
Court of Appeals
No. 36244-2-EI

Department II of the Court, composed of Chief Justice Stephens and Justices Madsen,
Gonzalez, Yu, and Whitener, considered at its April 28,2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 29th day of April, 2020.
For the Court

App. 15

14
1

second suit.

2

Superior Court and named Grant County and a number of other

3

defendants, some of which were named in the 2013 lawsuit, but

4

he also added some other named defendants in this case.

5

case was then removed to the United States District Court for

6

the Eastern District and on summary judgment Judge Mendoza

7

dismissed the causes of action against the defendant in the

8

case and found that the prosecutor and Judges were protected

9

by gualified or absolute immunity and that Trooper Kron was

10
11

He filed the second suit in Kittitas County

That

dismissed as a result of the theory of res judicata.
Judge Mendoza allowed Mr. Corrigan to file an

12

Amended Complaint which would — well, actually, it did allow

13

you file the Amended Complaint.

14

filed in this particular case and it looks like it was filedin

15

the United States District Court on September 7, 2017, and

16

again, Mr. Corrigan named Timothy Kron but he dropped some of

17

the defendants but added some new defendants.

18

prosecutor Angus Lee and Patrick Schaff and then the three

19

Judges involved in this case, Judge Whitener-Moberg, Judge

20

Barlow, and Judge Antosz and it added Timothy Kron, excuse me,

21

in the amended lawsuit.

22

That Amended Complaint was

He included

The issue that comes before this Court is whether

23

or not the plaintiff has stated claims upon which relief can

24

be granted as a matter of law.

25

motion to stay discovery pending the motion to dismiss.

App. 16

I do note that there was a
Judge

15
1

Federspiel, by order dated April 2, 2018, indicated that

2

discovery would be stayed so long as the Court was able to

3

rule on the CR 12 motion without resorting to a CR

4

(unintelligible), and when additional facts remain to be

5

supplemented, the Court can convert a CR 12 motion to a CR 56

6

summary judgment motion if necessary.

7

case that there has not been a supplementation of facts in

8

this case, that this matter was actually properly brought

9

before this Court on a CR 12 motion.

10

The Court finds in this

The motion to dismiss in this case I'm going to

11

address motion to dismiss all of the defendants, with the

12

exception of Trooper Kron, the plaintiff claims that Grant

13

County was negligent and the negligence arises out of the acts

14

of its Judges and prosecutors.

15

Grant County failed to train, supervise, instruct, or

16

implement policies and procedures that violated his right to

17

due process and to a fair trial.

18

The plaintiff asserts that

First of all, the Court knows of no circumstances

19

and no circumstances have been alleged that Grant County or

20

any other County in the State of Washington must train,

21

supervise, instruct, and implement policies and procedures for

22

Judges, especially Superior Court Judges —

23

(INTERRUPTION BY TELEPHONE SYSTEM.)

24

THE COURT:

25

— for (unintelligible) State of

Washington (unintelligible)

App. 17

FILED
Court of Appeals
Division III
State of Washington
12/16/2019 8:00 AM

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
DIVISION THREE
John L. Corrigan, Sr.,
No. 36244-2-m

Appellant,
V.

Appellant’s Motion For Reconsideration
GRANT COUNTY, A Municipal
Corporation; D. Angus Lee; Patrick Schaff;
Janis Whitener-Moberg; Brian D. Barlow;
John A. Antosz, and Timothy Kron,
Respondents.

COMES NOW, John L. Corrigan, Sr., Appellant pro se, pursuant to RAP 12.4(c) and
respectfully requests this Court reconsider its Unpublished Opinion filed November 26,2019
in the above entitled cause. Basically, this Court mistakenly converted the trial court’s CR
12(b)(6) order into a CR 56 order and granted summary judgment.
This Court abused its discretion and committed fraud on the court by not remanding to
the trial court for proper treatment of a CR 56 motion.
This Court abused its discretion by claiming Kron was improperly served and therefore
was exempt from the lawsuit.
This Court abused its discretion in converting from a CR 12(b)(6) motion to dismiss to a
CR 56 summary judgment motion.

l

App. 18

This Court is violating Appellant’s Sixth Amendment right to a fair trial under the U.S.
Constitution and his Fifth Amendment right to due process under the U.S. Constitution- both
through the Fourteenth Amendment to the U.S. Constitution.
ARGUMENT
A. This Court Abused Its Discretion And Committed Fraud On The Court By Not
Remanding To The Trial Court For Proper Treatment Of A CR 56 Motion.
INTRODUCTION
This Court was required to remand due to the fact that Appellant was denied discovery
and the only legitimate way of opposing a summary judgment motion is through discovery. The
trial court had a mandatory, not discretionary, duty to convert the motion to dismiss if matters
outside the pleading are presented to and not excluded by the trial court. The trial court’s actions
are reversible error and this Court abused its discretion by not remanding to the trial court.
Further, this Court’s insistence on pushing the summary judgment through the appellate
court without Appellant discovery - is a fraud on the court. 1
Early summary judgment motions (those filed at the time the lawsuit is commenced or
otherwise before, or during, discovery) are clearly permitted, unless foreclosed by local
rules or scheduling orders. Such early filings, though consistent with some prior case law,
seem at odds with the Supreme Court’s admonition in 1986 that summary judgment
should be granted only after the nonmoving party had an "adequate time for
discovery. ” [Citations omitted] [Emphasis added]
Federal Civil Rules Handbook 2019 (Handbook), © Thomson Reuters/West 2019, pp. 11311132

i

In Bulloch v. United States, 763 F.2d 1115,1121 (10th Cir. 1985), the court stated "Fraud
upon the court is fraud which is directed to the judicial machinery itself and is not fraud
between the parties or fraudulent documents, false statements or peijury. ... It is where the
court or a member is corrupted or influenced or influence is attempted or where the judge has
not performed his judicial function — thus where the impartial functions of the court have
been directly corrupted."
2

App. 19

ANALYSIS
CONVERSION
Both motions to dismiss and motions for judgment on the pleadings are pleadingsbased attacks. Rule 12(d) respects this essential attribute by requiring that such motions
be re-cast into summary judgment requests when materials outside the pleadings are
examined, thereby ensuring that the distinct policies of pleadings challenges (i.e., testing
the pleaded allegations) and factual challenges (i.e., testing the existence of supporting
evidence) are honored.
When, while considering a Rule 12(b)(6) or 12(c) motion, a court is presented
with materials outside the pleadings, and does not exclude them, the court is obligated to
“convert” the pleadings challenge into a summary judgment motion. To do so, the court
must give all parties notice of the conversion and an opportunity to both be heard and
to presentfurther materials in support of their positions on the motion. Following
conversion, and upon a proper request by the parties, the court typically ensures that the
parties have a reasonable opportunity for discovery prior to ruling on the converted
motion. (Ordinarily, conversion (and the consideration of extrinsic materials) is not
appropriate when discovery has not yet occurred.) The court then proceeds to evaluate
the motion as a request for summary judgment under Rule 56.
Although this conversion procedure is mandatory, not discretionary,...
The required notice of conversion may be either actual or constructive....
Because they are unlikely to appreciate the consequence of a conversion to
summary judgment procedures, pro se litigants will ordinarily be entitled to notice of that
conversion and its meaning. [Citations omitted] [Emphasis added]
Handbook. Rule 12(d) - Presenting Matters Outside the Pleadings, pp. 480-483. See also,
WA Civil Rules. Rule 12(b) (“... the motion shall be treated as one for summary judgment
and disposed of as provided in rule 56, and all parties shall be given reasonable opportunity
to present all material made pertinent to such a motion by rule 56.”)
•

Conversion by the trial court is mandatory;

•

There was no opportunity to be heard;

•

There was no opportunity to present further materials in support of summary judgment;

•

Appellant was never given the opportunity for discovery;

•

No notice of the actual conversion was provided; and

•

Appellant, as a pro se, was not afforded special notice of the conversion or its meaning.

3

App. 20

The trial court had a mandatory duty to convert the Rule 12(b)(6) motion to a rule 56 motion
for summary judgment if, as this Court claims, that materials outside the pleadings were
presented. The trial court’s actions are reversible error and this Court abused its discretion by not
remanding to the trial court for full consideration under Rule 56.

B. This Court Abused Its Discretion And Committed Fraud On The Court By
Claiming Defendant Kron Was Improperly Served And Therefore Was Exempt
From The Lawsuit.
ANALYSIS
Although Trooper Kron was no longer a party to that action, Corrigan informally
e-mailed Trooper Kron the amended complaint instead of formally serving him.
Unpublished Opinion, p. 3. This is disingenuous. Trooper Kron’s motion for summary judgment
was granted - that does not mean that he was no longer a party to that action. Options were still
available to Corrigan like his amended complaint or appeals to a higher court.
Also, Corrigan did not “informally” e-mail Trooper Kron the amended complaint instead
of formally serving him. Trooper Rron’s amended complaint was “formally” served to his
counsel, Carl Warring, through the US District Court, Eastern District of Washington using the
CM/ECF system.
This is a ludicrous and frivolous issue presented by Defendant Kron. This Court by
giving it credence is committing a fraud on the court.
Finally, it is not up to this Court to weigh the evidence or find the facts.
In ruling on a motion for summary judgment, the court will never weigh the
evidence or find the facts. Instead, the court’s role under Rule 56 is narrowly limited to
assessing the threshold issue of whether a genuine dispute exists as to material facts
requiring a trial. Thus, the evidence of the non-moving party will be believed as true, all
evidence will be construed in the light mostfavorable to the non-moving party, and all
doubts and reasonable inferences will be drawn in the non-moving party*s favor.
[Citation omitted] [Emphasis added]

4

App. 21

Handbook, pp. 1124-1125. This Court can assess the issue of whether or not Trooper Kron was
properly served. However, this Court is improperly weighing the evidence and finding the facts
in the moving party’s favor. This is an abuse of discretion.

C. This Court Abused Its Discretion In Converting From A CR 12(B)(6) Motion To
Dismiss To A CR 56 Summary Judgment Motion.
ANALYSIS
1. Trial Court Was Limited To A Motion To Dismiss.
A trial court hearing was conducted in which it was determined that Respondents’ motion
for summary judgment and motion to stay discovery could not both be granted. That is,
summary judgment would be considered but only upon a denial of the stay of discovery, and
vice versa. Respondents’ opted for a stay of discovery only on their assurance that they
would seek a motion to dismiss under CR 12(b)(6). Converting the motion to dismiss into
one of summary judgment by this Court was a violation of the stay of discovery condition
established by the trial court. Verbatim Report of Proceedings from an Audio File (Verbatim
Report), June 18, 2018, p. 14-15.
Further, the trial court judge specifically stated that “there has not been a supplementation
of facts in this case, that this matter was actually properly brought before this Court on a CR
12 motion.” Id, at 15.
2. This Court Did Not Establish Justification For Conversion.
This Court alleges that “because the trial court considered matters outside the pleadings, we
review the trial court’s order as if it were a CR 56 order granting summary judgment. Applying
that standard, we affirm.” Unpublished Opinion, p. 1. This Court cannot “affirm” the trial court’s

5

App. 22

summary judgment motion - because the motion was never properly before the trial court. The
trial court and all party’s were all responding to a motion to dismiss.
However, this Court did not identify what matters outside the pleadings were considered as
required by RAP 9.12.
On review of an order granting or denying a motion for summary judgment the appellate
court will consider only evidence and issues called to the attention of the trial court. The
order granting or denying the motion for summary judgment shall designate the documents
and other evidence called to the attention of the trial court before the order on summary
judgment was entered. Documents or other evidence called to the attention of the trial court
but not designated in the order shall be made a part of the record by supplemental order of
the trial court or by stipulation of counsel.
RAP 9.12 Special Rule for Order on Summary Judgment.
This Court is claiming that the trial court considered matters outside the pleadings, when the
trial court is claiming that “there has not been a supplementation of facts in this case.”
The issue that comes before this Court is whether or not the plaintiff has stated claims
upon which relief can be granted as a matter of law. I do note that there was a motion to stay
discovery pending the motion to dismiss. Judge Federspiel, by order dated April 2, 2018,
indicated that discovery would be stayed so long as the Court was able to rule on the CR 12
motion without resorting to a CR (unintelligible) [CR 56], and when additional facts remain
to be supplemented, the Court can convert a CR 12 motion to a CR 56 summary judgment if
necessary. The Courtfinds in this case that there has not been a supplementation offacts
in this case, that this matter was actually properly brought before this Court on a CR 12
motion.
Verbatim Report, pp. 14-15.
3. RAP 9.12 Special Rule for Order on Summary Judgment.
In order to properly support this Court’s summary judgment motion, this Court is required to
satisfy RAP 9.12 even if it has to certify by supplemental certificate and indicate precise matters
considered in ruling on motion.

6

App. 23

Appeal should not have been dismissed for appellants’ failure to have trial judge specifically
designate documents he considered in ruling on motion for summary judgment, but trial court
should have been directed to certify by supplemental certificate and indicate precise matters
considered in ruling on motion. Millikan v. Board of Directors of Everett School Dist. No. 2.
92 Wash. 2d 213, 595 P.2d 533 (1979). [Emphasis added]
2A Wash. Prac.. Rules Practice RAP 9.12 (8th Ed.). Washington Practice Series TM August 2018
Update.
Also, in order to properly evaluate RAP 9.12 requirements this Court must recognize the
exceptions to the “Conversion” requirements.
Various exceptions to the conversion procedure have been recognized. First, no
conversion is required when the court considers exhibits attached to the complaint (unless
their authenticity is questioned); documents that the complaint incorporates by reference
or are otherwise integral to the claim (provided they are undisputed); information subject
to judicial notice; matters of public record (including orders and other materials in the
record of the case); and concessions by plaintiffs made in their response to the motion. ...
Second, no conversion is usually required if only a portion of a document is
attached as an exhibit to the complaint, and the moving party submits remaining portions
with the motion.
Third, a party may waive any objection to a failure to properly convert by failing
to timely contest it.
Fourth, even if not waived, a failure to properly convert may be deemed harmless
if the non-moving party had an adequate opportunity to respond and was not otherwise
prejudiced. [Citations omitted]
Handbook, pp. 482-483.

7

App. 24

D. This Court Is Violalting Appellant’ ’s Sixth Amendment Right To A Fair Trial
Under The U.S. Constitution And His Fifth Amendment Right To Due Process
Under The U.S. Constitution - Both Through The Fourteenth Amendment To
The U.S. Constitution.
ANALYSIS
Based on the foregoing actions by this Court relating to violations of CR 12(b)(6) and CR
56, Appellant is denied a fair trial and a right to due process under the Fifth and Sixth
Amendments to the U.S. Constitution applicable to the states under the Fourteenth
Amendment.
CONCLUSION
Based on the foregoing actions by this Court, this Court should remand to the trial court
for a proper CR 56 summary judgment disposition; that is - “disposed of as provided in rule
56, and all parties shall be given reasonable opportunity to present all material made
pertinent to such a motion by rule 56.” See CR 12(b).

DATED this 16th day of December, 2019.

s/ John L. Corrigan
51 NE Blomlie Rd / Box 1846
Belfair, WA 98528
Telephone: 253.350.0790
Fax: None
Email: jcorrigan25@outlook.com

8

App. 25

September 28,202010:42
Receipt #: 5180534830
VISA #: XXXXXXXXXXXX8725
2020/09/2810:31

Page: 1

Qty_Description

Amount

1
1
21
18
7

PNG B&W S/S 8.5x11 & 8.5x14
PNG B&W S/S 8.5x11 & 8.5x14
PNG B&W S/S 8.5x11 & 8.5x14
PNG Color S/S 8.5x11 & 8.5x14
PNG B&W S/S 8.5x11 & 8.5x14

SubTotal
Taxes
Total

0.13
0.13
2.73
10.80
0.91

14.70
1.33
16.03

The Cardholder agrees to pay the Issuer of the charge
card in accordance with the agreement between the
Issuer and the Cardholder.
10854 MYHRE PLACE NW
SILVERDALE.WA 98383
(360)698-7099
www.FedExOffice.com
Tell us how we're doing and receive
$5 off your next $30 print order
at fedex.com/welisten or 1-800-398-0242
Offer Code:____Offer expires 12/31/2020
By submitting your project to FedEx Office or by
making a purchase in a FedEx Office store, you
agree to all FedEx Office terms and conditions,
including limitations of liability. Request a copy
of our terms and conditions from a team member
or visit fedex.com/officeserviceterms for details.
Please Recycle This Receipt

